2311 Douglas Street

@OCKLE

Legal Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No, 19-404

DAVID SETH WORMAN, ET AL., PETITIONERS
v.
MAURAT. HEALEY, IN HER OFFICIAL CAPACITY AS
ATTORNEY GENERAL OF THE COMMONWEALTH OF
MASSACHUSETTS, ET AL.

AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 25th day of October, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE NATIONAL SHOOTING SPORTS

FOUNDATION AS AMICUS CURIAE IN SUPPORT OF THE PETITIONERS in the above entitled case. All parties
required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

LAWRENCE G. KEANE
National Shooting

Sports Foundation, Inc.
400 North Capitol Street
Suite 475

Washington, D.C. 20001
(202) 220-1340
Ikeane@nssf.org

JONATHAN F. MITCHELL
Counsel of Record

Mitchell Law PLLC

111 Congress Avenue

Suite 400

Austin, Texas 78701

(512) 686-3940

jonathan@mitchell.law

Counsel for Amicus Curiae

Subscribed and sworn to before me this 25th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

ee Coolie Qu diow- hk, ehle

My Commission Expires Nov 24, 2020

 

 

Notary Public , Affiant 38790
 

Attorneys for Petitioners

John Parker Sweeney Bradley Arant Boult Cummings, LLP 202-719-8216
Counsel of Record 1615 L Street NW
Suite 1350

Washington, DC 20036

jsweeney@bradley.com

Party name: David Seth Worman, et al.

 

 

Attorneys for Respondents

Julia Eleanor Kobick Office of the Massachusetts Attorney General 617-963-2559
Counsel of Record 1 Ashburton Place
Boston, MA 02108

julia.kobick@mass.gov

Party name: Maura T. Healey, et al.

 

 
